I-97-08 Table of Contents
DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS REPORT
Immigration and Naturalization Service
Monitoring of Nonimmigrant Overstays
September 1997
Report Number I-97-08
TABLE OF CONTENTS
Transmittal Letter
Introduction
Dimensions of the
Overstay Problem Are Difficult to Determine
INS Study of
Legalized Alien Population
INS Estimates
of the Illegal Alien Population
INS Apprehension
Data
INS Removal Data
OIG Review of
Apprehension Reports
OIG Review of
Adjustment of Status Applications
Summary of the
Numbers
INS Has No Complete
and Reliable System to Track Overstays
INS Has No Specific
Overstay Enforcement Program
Identifying,
Locating and Arresting Individual Overstays
Lack of
Detention Capacity Severely Constrains Enforcement Effectiveness
INS Needs
to Analyze Available Data and Develop an Overstay Enforcement
Strategy
INS Needs More
Reliable and Complete Overstay Data to Meet its Responsibilities
INS Needs
to Provide the State Department With More Overstay Data to Better
Screen Visa Applicants
INS Is
Unable to Perform its Responsibilities Under the Visa Waiver
Pilot Program
Compliance with
the 1996 Act Will Require System Improvements
INS Can and Should
Improve its Departure Data
Conclusions and
Recommendations
Appendix I Immigration and Naturalization Service Response to
Draft Report - NOT INCLUDED IN THIS HYPERTEXT VERSION.
Appendix II Office of the
Inspector General's Analysis of Management's Response
#####